No. ______
In the

Supreme Court of the United States
__________________
NERINGA VENCKIENE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Michael D. Monico
Counsel of Record
MONICO & SPEVACK
20 South Clark Street
Suite 700
Chicago, IL 60603
312-782-8500
mm@monicolaw.com
Counsel for Petitioner
Neringa Venckiene

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
A. In Ornelas v. Ruiz, 161 U.S. 502 (1896), the
Court addressed the so-called “political offense”
exception to extradition, relating the phrase to actions
committed at or about a time revolutionary activity
was in progress. Since then, lower courts have limited
the exception to war-like insurrections. Given the
present state of international turmoil, which includes
acts of terrorism and violence on every possible scale,
the Court needs to provide a modern working definition
of the phrase and the principles necessary to apply the
political offense doctrine to the realities of today’s
world. The question presented therefore asks whether
the Seventh Circuit has correctly construed the
“political offense” exception to extradition by limiting
the term only to offenses committed in the midst of
war-like violent insurrections.
B. Prior Seventh Circuit precedent permitted the
District Court deny an extradition request where
“exceptional constitutional limitations as may exist
because of particularly atrocious procedures or
punishments employed by the foreign jurisdiction.” See
In re Burt, 737 F.2d 1477, 1487 (7th Cir. 1984). The
panel in the instant case noted that Munaf v. Geren,
553 U.S. 674 (2008), cast doubt “on the continuing
validity or at least the scope of Burt’s constitutional
and humanitarian limitations.” The panel avoided
deciding the issue by assuming Burt’s continuing
validity but ruling that petitioner failed to show
specific atrocious procedures or punishments that
would justify denying extradition anyway. The question
for review asks whether Munaf v. Green overruled the

ii
Seventh Circuit precedent and, if it did not, asks the
Court to address the scope of review when the subject
of an extradition request makes a claim of atrocious
conditions or punishments.
C. Ultimately the Secretary of State makes the
final decision with respect to extradition. In the
instant case petitioner received a letter from an
Assistant Legal Advisor for Law Enforcement and
Intelligence in the United States Department of State
who stated, without elaboration, that an Under
Secretary of State for Political Affairs had authorized
her extradition. Two related questions are raised.
First there is a jurisdictional question of whether an
Under Secretary, or a Legal Advisor, had the authority
to sign off on the extradition decision. If that question
is answered affirmatively, the Court should grant
certiorari to decide whether the Secretary of State as
an entity must provide something more than a bareboned statement to satisfy its obligations when it
comes to extradition.

iii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption. Neither the Petitioner nor any party is a
nongovernmental corporation and therefore there is no
parent corporation or any other company owning 10%
or more of stock.
RULE 14.1(b)(iii) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the abovecaptioned case in this Court:
United States v. Neringa Venckiene, No. 18 CR 56
(N.D.Il). On February 21, 2018, Magistrate Judge
Daniel Martin denied Venckiene’s motion for stay of
extradition to Lithuania.
Neringa Venckiene v. United States, 18 CR 56
(N.D.Il.). On July 12, 2018, District Judge Virginia
Kendall denied Petitioner’s request for a Stay of the
Secretary of State’s Order of extradition. The District
Court’s opinion can be found at 328 F. Supp. 3d 845.
Neringa Venckiene v. United States, No. 18-2529
(7th Cir.). On July 15, 2019, the Seventh Circuit
affirmed the Order of the District Court denying a stay.
The Seventh Circuit opinion can be found at 2019 U.S.
App. LEXIS 20861.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . iii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND
STATEMENT OF THE CASE . . . . . . . . . . . . . . . 1
A. Factual Summary . . . . . . . . . . . . . . . . . . . . . . 1
B. Lithuania/United States Extradition Treaty . 9
C. Magistrate and District Judge Proceedings . 11
D. Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . 12
REASONS FOR GRANTING THE PETITION . . . 14
I. THE COURT SHOULD GRANT THE
PETITION BECAUSE THE TIME IS RIPE TO
CONSIDER AND EXPLAIN THE SO-CALLED
“POLITICAL OFFENSE” EXCEPTION
COMMON IN EXTRADITION TREATIES. . . . 14
A. The Court Should Grant Certiorari to
Provide Guidance to the Lower Courts On
Whether the Term “Political Offense”
Requires the Existence of a Violent Uprising
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

v
B. Assuming the Existence of a Violent Political
Disturbance The Court Should Grant
Certiorari to Guide Lower Courts On When
an Offense is “Incidental” to an Insurrection
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
II. CERTIORARI SHOULD BE GRANTED TO
DETERMINE WHETHER THE JUDICIAL
BRANCH CAN DECIDE HUMANITARIAN
ISSUES
THAT
RESULT
FROM
PARTICULARLY ATROCIOUS PROCEDURES
OR PUNISHMENTS IN THE REQUESTING
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . 26
II. THE COURT SHOULD GRANT CERTIORARI
TO DECIDE WHETHER SOMEONE OTHER
THAN THE SECRETARY OF STATE HAS
AUTHORITY TO SIGN OFF ON A BAREBONED EXTRADITION ORDER . . . . . . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix A Opinion and Final Judgment in the
United States Court of Appeals for the
Seventh Circuit
(July 15, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(July 12, 2018) . . . . . . . . . . . . . . App. 42

vi
Appendix C Order in the United States District
Court for the Northern District of
Illinois Eastern Division
(February 23, 2018) . . . . . . . . . . App. 88
Appendix D Order in the United States District
Court for the Northern District of
Illinois Eastern Division
(February 21, 2018) . . . . . . . . . . App. 90
Appendix E Letter Re Extradition of Neringa
Venckiene, to Michael Monico from
Tom Heinemann, U.S. Department of
State
(April 23, 2018) . . . . . . . . . . . . . . App. 92

vii
TABLE OF AUTHORITIES
CASES
Ahmad v. Wigen,
726 F.Supp. 389 (E.D.N.Y. 1989) . . . . . . . . . . . . 25
Barapind v. Enomoto,
400 F.3d 744 (9th Cir. 2005). . . . . . . . . . . . . . . . 21
Bryant v. United States,
167 U.S. 104 (1897). . . . . . . . . . . . . . . . . . . . . . . 15
Burgos Noeller v. Wojdylo,
922 F.3d 802 (7th Cir. 2019). . . . . . . . . . . . . . . . 10
In re Burt,
737 F.2d 1477 (7th Cir. 1984). . . . . . . . . 26, 27, 28
In re Castioni,
1 Q.B. 149 (1890) . . . . . . . . . . . . . . . . . . . . . . . . 24
Cheung v. United States,
213 F.3d 82 (2d Cir. 2000) . . . . . . . . . . . . . . . . . 10
Collins v. Loisel,
259 U.S. 309 (1922). . . . . . . . . . . . . . . . . . . . . . . 15
Dumjanjuk v. Petrovsky,
776 F.2d 571 (6th Cir. 1985), cert. denied, 475
U.S. 1016 (1986) . . . . . . . . . . . . . . . . . . . . . . 25, 26
Eain v. Wilkes,
641 F.2d 504 (7th Cir. 1981). . . . . . . 16, 17, 18, 25
Elias v. Ramirez,
215 U.S. 398 (1910). . . . . . . . . . . . . . . . . . . . . . . 15

viii
Escobedo v. United States,
623 F.2d 1098 (5th Cir. 1980). . . . . . . . . . . . . . . 27
In re Extradition of Demjanjuk,
612 F.Supp. 544 (S.D. Ohio) . . . . . . . . . . . . . . . . 25
In re Ezeta,
62 F. 972 (N.D.Cal. 1894) . . . . . . . . . . . . . . . . . . 24
Kelly v. Griffin,
241 U.S. 6 (1916). . . . . . . . . . . . . . . . . . . . . . . . . 10
Koskotas v. Roche,
931 F.2d 169 (1st Cir. 1991) . . . . . . . . . . . . . . . . 18
In re Manea,
2018 WL 1110252 (D.Conn., Mar. 1, 2018) . . . 18
Martin v. Warden,
993 F.2d 824 (11th Cir. 1983). . . . . . . . . . . . . . . 26
McNamara v. Henkel,
226 U.S. 520 (1913). . . . . . . . . . . . . . . . . . . . 10, 15
Meza v. United States Attorney General,
693 F.3d 1350 (11th Cir. 2012). . . . . . . . . . . . . . 18
Munaf v. Geren,
553 U.S. 674 (2008). . . . . . . . . . . . . . . . . . . . 26, 27
Neely v. Henkel,
180 U.S. 109 (1901). . . . . . . . . . . . . . . . . . . . . . . 28
Nezirovic v. Holt,
779 F.3d 233 (4th Cir. 2015). . . . . . . . . . . . . . . . 25
Nken v. Holder,
556 U.S. 418 (2009). . . . . . . . . . . . . . . . . . . . 12, 31

ix
Ordinola v. Hackman,
478 F.3d 588 (4th Cir. 2007). . . . . . . 16, 17, 18, 21
Ornelas v. Ruiz,
161 U.S. 502 (1896). . . . . . . . . . . . . . . . . . . passim
Peroff v. Hylton,
563 F.2d 1099 (4th Cir. 1977). . . . . . . . . . . . . . . 27
Plaster v. United States,
720 F.2d 340 (4th Cir. 1993). . . . . . . . . . . . . . . . 26
Quinn v. Robinson,
783 F.2d 776 (9th Cir. 1986). . . . . . . . . . . . passim
In re Requested Extradition of Joseph Patrick
Doherty,
599 F. Supp. 2d 270 (S.D.N.Y. 1984) . . . . . . . . . 21
Skaftouros v. United States,
667 F.3d 144 (2d Cir. 2011) . . . . . . . . . . . . . . . . 10
Sunal v. Large,
332 U.S. 174 (1947). . . . . . . . . . . . . . . . . . . . . . . 15
Terlinden v. Ames,
184 U.S. 270 (1902). . . . . . . . . . . . . . . . . . . . . . . 15
Trinidad y Garcia v. Thomas,
683 F.3d 952 (9th Cir. 2012). . . . . . . . . . 29, 30, 31
Vo v. Benov,
447 F.3d 1235 (9th Cir. 2006). . . . . . . . . . . . . . . 18
Wright v. Henkel,
190 U.S. 40 (1903). . . . . . . . . . . . . . . . . . . . . . . . 15

x
Zenli Ye Gon v. Dyer,
2015 U.S.Dist. LEXIS 138097 (W.D.Va.). . . . . . 30
STATUTES
18 U.S.C. § 3184 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
TREATIES
Extradition Treaty, Lithuania/United States,
art. IV, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . 9-10, 14
Extradition Treaty, Lithuania/United States,
art. IV, § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 21
Extradition Treaty, Lithuania/United States,
art. IV, § 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITIES
Garcia-Mora, The Nature of Political Offenses: A
Knotty Problem of Extradition Law, 48 Virginia
L. Rev. 1226 (1962) . . . . . . . . . . . . . . . . . . . . . . . 17
Merriam-Webster On-Line Dictionary, merriamwebster.com/dictionary/putsch . . . . . . . . . . . . . . 20
H o w
i t
a l l
H a p p e n e d ,
euromaidanpress.com/2016/02/20/the-story-ofukraine-starting-from-euromaidan/2/ . . . . . . . . 20

1
OPINION BELOW
The Seventh Circuit affirmed the District Court’s
Order denying Petitioner’s request for a stay in an
opinion appended as App. A and reported at 2019 U.S.
App. LEXIS 20861. The opinion of the District Court
is appended as App. B and reported at 328 F. Supp. 3d
845.
INTRODUCTION AND
STATEMENT OF THE CASE
A. Factual Summary
At the time of the events leading up to these
proceedings, Neringa Venckiene worked as a judge in
Lithuania. Her brother, Drasius Kedys (“Kedys”), had
full custody of his daughter, a child born out of wedlock
from a union between Kedys and his ex-girlfriend,
Laimute Stankunaite (“Stankunaite”), and identified
herein by her initials (“DK”). In 2008, when DK was
four (4) years old, she mentioned to Judge Venckiene’s
mother that she had been molested during visitations
with Stankunaite. DK identified three men, one of
whom was Andrius Usas (“Usas”), an Assistant to the
Speaker of the Seimas from 2004-2008, another was
Jonas Furmanavicius, a Kaunas Regional Court Judge,
and one known by first name only. DK later claimed
that Stankunaite not only facilitated the abuses but
participated. In December 2010, a journalist wrote an
article that identified Usas as possibly being a
middleman in a regional pedophilia network involving

2
high ranking officials in both Latvia and Lithuania.
(Case No. 18-cv-03061, N.D.Il., R. 13-1 at 16-31 1).
In fact, according to translated articles, Lithuania
had been publicly alerted about a pedophilia network
a decade earlier by its neighbor, Latvia, which had
been shocked to discover such a network in Latvia that
had links to Lithuania. According to the story, the
unofficial answer from Lithuania was that very famous
Lithuanian names were connected to the network and
“[t]hey are an integral part of our elite, they are
untouchable.” Articles described it as the biggest
corruption and pedophilia scandal in Eastern Europe.
(Id., R. 13-1 at 32-33; R. 13-1 at 34-47; R. 13-1 at 4850).
Several psychologists deemed DK’s molestation
allegations to be legitimate and not the product of
fantasy or fabrication. R. 44-1 at 31-32. Judge
Venckiene and Kedys filed numerous complaints to the
Prosecutor General’s Office that were largely ignored.
The case drew national interest with Judge Venckiene
and Kedys leading the charge. Judge Venckiene and
Kedys became outspoken critics of the resulting
investigation into the pedophilia allegations,
vociferously disparaging what they viewed as
investigatory negligence and corruption within the
Lithuanian government and judiciary. They believed
DK had been a victim of the Latvian/Lithuanian
pedophilia network. But their protests met a brick

1

The citations reference exhibits attached to Petitioner’s Reply
Memorandum In Support of Motion for Stay of Extradition, Case
No. 18-cv-03061 (N.D.Il.)

3
wall. In frustration Judge Venckiene authored a book
she entitled Drasius’ Hope to Save the Child.
On October 5, 2009, Furmanavicius and
Stankunaite’s sister, Violeta Naurseviciene, were shot
and killed. On the same day Judge Venckiene’s brother
Kedys disappeared. With Judge Venckiene’s brother
missing and Stankunaite under suspicion at the time,
a court awarded full guardianship of DK to Judge
Venckiene.
The Vilnius District Court would
eventually conclude that sufficient evidence existed to
charge Stankunaite in the molestation case but the
prosecutor’s office never did so.
In March 2010 Venckiene asked for an investigation
with respect to threats Usas made against her and her
family on a television show. (Id., R. 13-1 at 86-92). On
April 17, 2010, Kedys’ dead body was discovered on the
bank of a lagoon. A government investigation declared
his death to have been accidental (alcohol induced
asphyxiation caused by his own vomit), but an
independent criminologist concluded he had in fact
been murdered. His funeral drew thousands of
Lithuanian citizens. (Id., R. 13-1 at 55-59; R. 13-1 at
62-63)
The highly publicized pedophilia allegations and
Kedys’ death ignited a grassroots political movement
that blossomed into an anti-graft political party called
“Way of Courage.” Its founders created Way of
Courage to oppose political corruption and seek justice
for Kedys and the child. Judge Venckiene assumed the
role of party figurehead and Kedys became its martyr.
Judge Venckiene also helped organize a group of
supporters to hunt for and surveille suspected

4
members of the “pedophile clan” in order to gather
information against them. The extradition papers
alleged that Judge Venckiene directed the activities of
this group, “organizing and ensuring active resistance
to handing over her niece and complying with court
orders to do so.” The house where she and the child
stayed was referred to as a “resistance camp” that,
according to the arrest warrant, had someone “standing
duty.”
On June 13, 2010, Usas, another of the alleged
pedophilia perpetrators, was found dead.
On
November 17, 2010, the Panevesyz District Court
discontinued investigating Usas’ involvement in the
pedophilia allegations. Judge Venckiene publicly
denounced the Lithuanian government’s handling of
the investigation and vowed to journalists that this
would not end the matter, that she would not be
silenced, and though it may take two to five years,
everything will be exposed eventually. Newspapers
published the more inflammatory excerpts leading the
government to initiate a pre-trial investigation against
her for “humiliating” the court.
On January 12, 2011, having found no evidence to
suggest Venckiene had violated any laws, the
authorities terminated the investigation. Meanwhile,
the statute of limitations on any possible charges
against her expired. On February 24, 2011, however,
the head of the Judicial Council petitioned to extend
the already expired limitations period. The petition
was granted, though proceedings against Judge
Venckiene laid dormant for over a year.

5
Throughout this ordeal, Judge Venckiene was the
legal guardian of her niece. On December 16, 2011, the
Kedainai District Court ordered her to return the child
to the home of DK’s mother (Stankunaite), upon whose
watch the alleged molestation had been allowed to
occur. Judge Venckiene claimed the child refused to
leave, not wanting to live with her mother due to fears
of further sexual molestation. Public outcry and
protests over the order ensued.
On March 22, 2012, the Kedainiai District Court
ruled authorities could use force to effectuate the
transfer, but only on any obstacles in the way of
enforcement of the court order. On March 23, 2012, the
court bailiff and about 25 police officers arrived at the
child’s grandparents’ home at a time Judge Venckiene
was not present. During an attempted transfer, officers
physically assaulted Judge Venckiene’s mother and
aunt and traumatized DK. The transfer effort was
unsuccessful. A video recording of the incident was
posted on the internet and received national attention.
Hundreds of people began camping out on the lawn to
protect the little girl. (R. 13-1 at 69). The Lithuanian
Chief Judge and Head of the Judicial Council
responded by publicly branding Judge Venckiene an
“abscess in the legal system [and] also in the political
system” and “that [she is] trouble of the whole state.”
(Id., R. 13-1 at 62-63). He described Judge Venckiene
as having assaulted the judicial system. He tried to
induce Judge Venckiene to resign but she refused. His
negative comments poisoned the well against Judge
Venckiene and undoubtedly influenced how the
Lithuanian authorities would deal with her in the
future.

6
On May 17, 2012, over 200 law enforcement
representatives invaded the “resistance camp” where
Judge Venckiene and the child were being safeguarded.
They had to remove barriers and obstacles. A
transcript from a television show that aired on May 20,
2012, recorded an interview with the Police
Commissioner who stated that there were 80 Capital
officers and 140 police officers engaged in “the biggest
operation in the [sic] Lithuanian history in a civil case.”
The officers came primed for riots and “massive
unrest.” Over 100 protesters gathered outside, many
of whom ended up being arrested. Reserves had to be
called in. (Id., R. 13-1 at 67-68; R. 13-1 at 69).
Officers disabled cameras that had been installed
inside the home to capture the events. They broke
through the doors. The child clung to Judge Venckiene
refusing to let go and begged not to be taken away.
(R. 13-1 at 78-79). Officers forcibly disengaged her,
injuring Judge Venckiene’s right shoulder in the
process. The Lithuanian government later alleged that
in the commotion Judge Venckiene kicked Stankunaite
and punched an officer.
The May 17, 2012 incident had also been
videotaped, at least in part, precipitating even greater
public outrage and leading Judge Venckiene to become
even more outspoken. She published a second book,
called Way of Courage, criticizing the judicial system
and its negligent investigation of Kedys’ case and the
molestation allegations.

7
The events leading up to and culminating on May
17 led to marches and protests, with people carrying
signs reading “Do not touch Neringa,” “Freedom to the
girl,” “Freedom to Lithuania,” and “Lithuania be
happy.” (Id., R. 13-1 at 70). Afterwards people
protested in the public square. According to one
translated report
The wounded people were loudly angry about
how violence against the child could be
tolerated. Anger booms were also directed at the
officers, who dared to invade the private house,
break the glass door. It was also directed at the
nation’s President, who tolerated such events.
(Id., R. 13-1 at 71).
Protests grew and incidents multiplied. In one
incident Kedys’ sympathizers blocked the President’s
motorcade and harassed her while trapped inside her
car. (Id., R. 13-1 at 72). An apparent attempt was
made on Judge Venckiene’s life by removing the lug
nuts from her tires while she attended a campaign
rally. Police declined to investigate. (R. 13-1 at 83).
Judge Venckiene’s young son, a minor at the time,
allegedly sang “a distorted version of the anthem of the
Republic of Lithuania,” a transgression that brought
allegations against Judge Venckiene for desecrating
state symbols. As one translated article reported it,
several members of Judge Venckiene’s organized group
publicly stated that Lithuania needs a putsch or
Maidan, and all governments and parliaments
need to be blown up and rebuilt. N. Venckiene
is alleged to have publicly urged people to

8
violate the sovereignty of the Republic of
Lithuania.
(Id., R. 13-1 at 73-74). 2
On May 23, 2012, citing Judge Venckiene’s
supposed incendiary remarks of November 17, 2010,
and her alleged “interference” with the transfer on May
17, 2012, the prosecutor general asked parliament to
revoke Judge Venckiene’s judicial immunity, which
Parliament did on June 26, 2012. Venckiene resigned
her judgeship the next day, citing among other things
frustration she had experienced inside the courts and
the negligent handling of her niece’s pedophilia case.
Nor could she effectively perform her job. A Public
Commission comprising law professors and drafters of
the Lithuanian Constitution issued a report that
concluded, among other things, that the police
unlawfully violated Judge Venckiene’s judicial
immunity when they forcibly removed her niece and
that any criminal prosecution of Venckiene was
baseless.
Having resigned her judgeship, Venckiene did not
abandon her political activities. In fact, they increased.
The Way of Courage political party organized protests,
circulated petitions, and fostered dialogue on internet

2

Venckiene’s habeas petition alleged a number of other indignities
and punishments Lithuanian authorities visited upon her, such as
withholding her salaries from both the judiciary and parliament,
cancelling vacations, kicking her out of a PhD program, pressuring
her son’s school not to allow him to finish seventh grade, charging
her for publishing a book and giving interviews to journalists, and
prosecuting family, friends and supporters. R. 44 at 7-9.

9
forums and blogs. In the October 2012 parliamentary
election Way of Courage won seven (7) seats and
elected Venckiene to act as Party Chair. On December
28, 2012, however, the prosecutor general petitioned to
remove Venckiene’s parliamentary immunity so she
could be arrested on the charges relating to the
transfer of her niece and for 1) humiliating the court;
2) failing to comply with a court order to transfer her
niece to her niece’s mother; 3) violating her duty as her
niece’s guardian by causing the child psychological
stress; and 4) on May 17, 2012, refusing to allow police
into the home, physically assaulting an officer, and
assaulting Laimute Stankunaite. On April 9, 2013, her
parliamentary immunity was removed.
Fearing for her personal safety in Lithuania, shortly
thereafter Venckiene came to the United States. She
applied for asylum, an application that has yet to be
ruled upon. She bought a home in Crystal Lake,
Illinois where she lived openly and without incident
and with her 18-year-old son operated a store she
owned. Nearly five (5) years passed until Lithuania
formally sought her extradition.
B. Lithuania/United States Extradition Treaty
Pursuant to an extradition treaty between the
United States and the Republic of Lithuania, an offense
is extraditable “if it is punishable under the laws of
both States by deprivation of liberty for a period of
more than one year or by a more severe penalty.”
Extradition Treaty, Lithuania/United States, art. II,
§ 1. The treaty makes an exception, however, “if the
offense for which extradition is requested is a political
offense.” Id., Art. IV, § 1. The treaty does not

10
specifically define the term “political offense,” but does
describe some offenses that are not, e.g., murder,
manslaughter, and malicious wounding, among other
violent acts. Id., Art. IV, § 2. The treaty does state that
“extradition shall not be granted if the executive
authority of the Requested State determines the
request was politically motivated.” Id., Art. IV, § 3.
A person targeted by an extradition request is
entitled to a hearing before a Magistrate Judge
pursuant to 18 U.S.C. § 3184, whose inquiry is limited
to finding 1) whether a valid treaty exists; 2) whether
the offense is covered by the relevant treaty; and
3) whether the evidence presented in support of the
complaint for extradition is sufficient under the
applicable standard of proof. McNamara v. Henkel, 226
U.S. 520, 523-24 (1913). See also Skaftouros v. United
States, 667 F.3d 144, 154-55 (2d Cir. 2011), quoting
Cheung v. United States, 213 F.3d 82, 88 (2d Cir. 2000).
If the Magistrate Judge makes those three findings, the
matter is referred to the Secretary of State to
determine whether the extradition should proceed
further. It has been generally accepted that the
executive branch has the sole authority to deny a
request for extradition if the request was politically
motivated – a provision included in the United
States/Lithuania treaty -- and whether humanitarian
concerns justify denying the request. See United
States/Lithuania Treaty, Art. IV, § 3. See also Burgos
Noeller v. Wojdylo, 922 F.3d 802, 808 (7th Cir. 2019).

11
C. Magistrate and District Judge Proceedings
About five years after Venckiene had come to the
United States, Lithuania formally requested her
extradition under the treaty. An original arrest
warrant was sanitized to remove allegations of a
political nature, so that the final complaint charged her
as follows:
1. Complicity in committing a criminal act
(unlawful collection of information about a
person’s private life, i.e., stalking), in violation of
Lithuania Criminal Code Article 25;
2. Unlawful collection of information about a
person’s private life, i.e., stalking, in violation of
Lithuania Criminal Code Article 167;
3. Hindering the activities of a bailiff, in violation
of Lithuania Criminal Code Article 231;
4. Failure to comply with a court decision not
associated with a penalty, in violation of
Lithuania Criminal Code Article 245;
5. Causing physical pain, in violation of Lithuania
Criminal Code 140(1); and
6. Resistance against a civil servant or a person
performing the functions of public
administration, in violation of Lithuania
Criminal Code Article 286.
Magistrate Judge Daniel Martin held an extradition
hearing pursuant to section 3184 and certified
Venckiene as extraditable for offenses three through
six, after which Petitioner was committed to the

12
custody of the United States Marshal pending the
Secretary of State’s decision on her request to prevent
extradition. On April 20, 2018, however, the Secretary
of State authorized her surrender.
Petitioner thereupon filed a Petition for Habeas
Corpus in the District Court challenging both
Magistrate Judge Martin’s and the Secretary of State’s
decisions. She asked the District Court to stay the
extradition order while the habeas petition was
pending as well as to provide an opportunity for the
asylum petition to be ruled upon. In addition, private
legislation had been introduced in the 115th and 116th
Congress but not yet considered that would have
excluded Petitioner from the scope of the
Lithuania/United States Treaty.
After applying the four (4) factor test articulated in
Nken v. Holder, 556 U.S. 418, 434 (2009) -- 1) whether
the stay applicant has made a strong showing that she
is likely to succeed on the merits; 2) whether the
applicant will be irreparably injured absent a stay;
3) whether issuance of the stay will substantially injure
the other parties who have an interest in the litigation;
and 4) where the public interest lies – the District
Court rejected Petitioner’s request for a stay.
D. Opinion Below
Petitioner appealed the denial of the stay to the
Seventh Circuit Court of Appeals, which affirmed the
decision of the District Court. With respect to whether
Venckiene had shown a likelihood of success on the
merits, Venckiene argued that once reviewed on the
merits extradition would likely be denied because

13
Lithuania was seeking to extradite her for a political
offense, a commonly included exception to extradition
that was also a provision in the treaty between the
United States and the Republic of Lithuania.
The Seventh Circuit recognized two varieties of
political offenses: 1) “pure” political offenses,
encompassing offenses such as treason, sedition, and
espionage; and 2) “relative” political offenses, defined
as common crimes so connected with a political act that
the entire offense is regarded as political. Venckiene
was not arguing that the offenses were “pure” political
offenses and the Seventh Circuit found that to qualify
as a “relative” political offense the actions must have
been committed as part of a “violent political
disturbance or uprising” incident to “war, revolution or
rebellion,” or at least a disturbance similar thereto.
The court held that Venckiene’s offenses did not meet
that threshold, and even if they did, her offenses “were
personal, not political,” and therefore not “incidental”
to the disturbance.
Petitioner also argued that she faced atrocious
conditions and punishments if returned to Lithuania,
justifying at least a stay pending a hearing on the
merits, her asylum petition, and a pair of congressional
“personal bills” that were submitted to exclude her
from extradition. The Seventh Circuit questioned
whether it had the authority to deny extradition on
those grounds. Ultimately the court found some of the
allegations troubling but ruled they were not specific
enough to deny extradition.

14
REASONS FOR GRANTING THE PETITION
I. THE COURT SHOULD GRANT THE
PETITION BECAUSE THE TIME IS RIPE TO
CONSIDER AND EXPLAIN THE SO-CALLED
“POLITICAL OFFENSE” EXCEPTION
COMMON IN EXTRADITION TREATIES
The time is ripe for the Court to review the illdefined “political offense” exception to extradition.
Commonly included in United States extradition
treaties, the political offense exception forbids the
United States from extraditing individuals based on
offenses that are political in nature. The United
States/Republic of Lithuania treaty contains just such
a restriction, which reads simply that “Extradition
shall not be granted for an offense for which extradition
is requested is a political offense.” Extradition Treaty
United States/Lithuania, Art. 4. The reason certiorari
should be granted is to insure uniformity among the
lower courts as to what constitutes a political offense,
especially in today’s international environment where
the issue is likely to arise on multiple occasions.
Whether single acts of terrorism, violent actions
against individuals, or only acts of violent insurrection
(as the Seventh Circuit held here), are prerequisites to
a political offense exception needs to be addressed by
the Court as such cases are certain to proliferate.
In the instant case, the term “political offense” is
not defined in the treaty. This Court addressed the
political offense exception in Ornelas v. Ruiz, 161 U.S.
502 (1896), barely defining it there, and a Shepherds
search indicates the Court has not directly addressed
it since. See Quinn v. Robinson, 783 F.2d 776, 797 (9th

15
Cir. 1986) (“The Supreme Court has addressed the
political offense issue only once.”).3 In Ornelas a band
of over one-hundred armed men crossed the Texas
border into Mexico and attacked forty Mexican soldiers
at or about a time when revolutionary activity in
Mexico was in progress. Besides attacking the soldiers,
however, the men also attacked private citizens, took
three of them prisoner and stole their belongings. The
Court held the offenses were not connected to any
revolutionary activities then taking place in Mexico,
e.g., the men were not acting in aid of a political revolt,
an insurrection, or a civil war when they attacked the
Mexican civilians and soldiers. Onrelas’s reference to
“revolt … insurrection, or … war” would lead those
words to become the reference point for future
interpretations of the political offense exception, even
though the holding in Ornelas more accurately

3

A Shepherds search using the terms “Ornelas /3 Ruiz &
extradition” brings up nine Supreme Court cases, none of which
elucidate parameters for the “political offense” exception.” From
most recent to oldest, they are Sunal v. Large, 332 U.S. 174 (1947);
Collins v. Loisel, 259 U.S. 309 (1922); Kelly v. Griffin, 241 U.S. 6
(1916); McNamara v. Henkel, 226 U.S. 520 (1913); Elias v.
Ramirez, 215 U.S. 398 (1910); Wright v. Henkel, 190 U.S. 40
(1903); Terlinden v. Ames, 184 U.S. 270 (1902); Bryant v. United
States, 167 U.S. 104 (1897). Only one, Terlinden, one-hundred and
seventeen (117) years ago, even referred to the word “political,”
and that was with respect to the question of who, the judicial or
executive branch, makes the decision whether a foreign state has
the power to carry out its treaty obligations. See Terlinden, 184
U.S. at 288 (“We concur in the view that the question whether
power remains in a foreign State to carry out its treaty obligations
is in its nature political and not judicial, and that the courts ought
not to interfere with the conclusions of the political department in
that regard.”).

16
addressed the fact that the men’s activities were not
committed as incidental to the revolution, irrespective
of whether the men’s actions could have been
considered a qualifying prerequisite or not.
In the absence of this Court’s further guidance the
law in this area has been advanced by a number of
appellate and district court decisions. One case
typically cited is Quinn v. Robinson, 783 F.2d 776 (9th
Cir. 1986). Quinn noted the political offense exception
is premised on a number of justifications, including the
belief that individuals have a “right to resort to
political activism to foster political change.” Quinn, 783
F.2d at 793. It stated that the political offense
exception reflects concern that individuals should not
be returned to countries where they may be subjected
to unfair trials and punishments because of their
political opinions, and that the exception comports with
the notion that governments should not intervene in
the political struggles of other nations. Id.
From there, Quinn and the federal courts before and
after Quinn have commonly come to accept two types
of political offenses, “pure” and “relative.” Pure
political offenses are crimes like treason, sedition, and
espionage, acts “directed against the state but which
contain[ ] none of the elements of ordinary crime.” Eain
v. Wilkes, 641 F.2d 504, 512 (7th Cir. 1981). See also
Ordinola v. Hackman, 478 F.3d 588, 596 (4th Cir.
2007); Quinn v. Robinson, 783 F.2d at 794. Relative
political offenses have been defined as “otherwise
common crimes in connection with a political act,” or
“common crimes … committed for political motives or
in a political context.” Ordinola, 478 F.3d at 596;

17
Quinn, 783 F.2d at 794. Put differently, the courts
have come to consider “relative” political offenses as
common crimes “so connected with a political act that
the entire offense is regarded as political.” App. App.
16-17, citing Eain v. Wilkes, 641 F.2d at 512, quoting
Garcia-Mora, The Nature of Political Offenses: A Knotty
Problem of Extradition Law, 48 Virginia L. Rev. 1226,
1230-31 (1962). See also Quinn, 783 F.2d at 794;
Ordinola v. Hackman, 478 F.3d 588, 596 (4th Cir.
2007).4
Because the instant case did not directly involve
treason, sedition, or espionage – “pure” political
offenses -- in deciding whether the political exception
existed in the instant case the Seventh Circuit turned
to the requisites for “relative” political offenses.
Consistent with the majority of lower courts, the
Seventh Circuit applied what has been described as the
two-fold “incidence test” to determine whether offenses
could be deemed “relative.” First, was a violent
political disturbance or uprising occurring in the
requesting country at the time of the alleged offense;
and second, was the charged offense “incidental to,” “in
the course of,” or “in furtherance of that uprising.” Id.
at 15, citing Ordinola, 478 F.3d at 597; Eain, 641 F.2d
at 518.

4

Notably this dichotomy between “pure” and “relative” offenses,
though universal, was crafted in the district and appellate courts,
not this Court. It does not appear that this Court has ever passed
on whether this distinction is the correct one, another reason that
certiorari needs to be granted in this case.

18
A. The Court Should Grant Certiorari to
Provide Guidance to the Lower Courts On
Whether the Term “Political Offense”
Requires the Existence of a Violent
Uprising
Like most courts, the Seventh Circuit has taken the
position that the first prong of the “relative” political
offense inquiry – the existence of a “violent political
disturbance or uprising” -- is a prerequisite to finding
a relative political offense. App. 19, and citing Koskotas
v. Roche, 931 F.2d 169, 171 (1st Cir. 1991); Ordinola,
478 F.3d at 596-97; Vo v. Benov, 447 F.3d 1235, 124041 (9th Cir. 2006); Meza v. United States Attorney
General, 693 F.3d 1350, 1359 (11th Cir. 2012); In re
Manea, 2018 WL 1110252, at *25 (D.Conn., Mar. 1,
2018). The Seventh Circuit has long equated violent
political disturbances with activities such as “war,
revolution or rebellion,” and it applied the same
formulation to reject the uprising element in the
instant case. Eain, 641 F.2d 504 (distinguishing ongoing, organized battles between contending
armies and conflicts that involve groups with the
dispersed nature of the PLO and noting that in the
former case, unlike the latter, a clear distinction can be
drawn between the activities of the military forces and
individual acts of violence). See also Quinn, 783 F.2d
802. Though cautioning that “war, revolution or
rebellion” were not the only acts sufficient that could
satisfy the first prong of the incidence inquiry, the
panel designated them as “guideposts for assessing
whether other claimed disturbances or uprisings fall
within the general range of qualifying political events.”
App. 19.

19
Petitioner seeks a writ of certiorari because this
Court has never weighed in on whether the first prong
of the incidence test – a violent political uprising – is
limited to what amounts to something similar to a war
or revolution. The Seventh Circuit does not cite a
single case from this Court that calls for such a
requirement, and the lower court cases upon which the
Seventh Circuit relies do not cite any Supreme Court
precedent either. Somehow this Court’s language in
Ornelas has been morphed into this warlike
requirement, when all Ornelas stated, in the context of
determining whether a political offense exception
applied there, was that looking at “the nature of the
foray, the persons killed or captured, and the kind of
property taken or destroyed,” the commissioner was
not obviously wrong in that case when he found the
violent acts were not in the aid of an insurrection or
civil war. The description of the uprising was
effectively dicta; the ultimate holding in the case was
that given the nature of the foray etc. the offenses were
not in aid of an insurrection or civil war because the
petitioners’ committed the offenses not only against
soldiers but against civilians and then retreated back
to Texas. In other words, the men committing the
crimes had no stake or interest in the revolution taking
place. If anything, they either took advantage of the
revolution to commit their personal criminal acts or
just happened to commit their offenses during a time
revolution was afoot.

20
Here, the Lithuanian government itself treated the
events as a burgeoning political uprising. People
described the events as a putsch5 or Maidan6 and
followers threatened to blow up the government.
Venckiene allegedly publicly called to violently breach
Lithuania’s sovereignty. The complaint for extradition
alleged that Ms. Venckiene recruited and organized a
group of people to gather and publicize information
about private lives – and in particular people of
authority -- who were allegedly part of the pedophilia
network. The President’s car was attacked. At least
four people died – three being murdered and a fourth
under suspicious circumstances. An apparent attempt
was made on Venckiene’s life. The police commissioner
in a television interview described the May 17
operation as “the biggest operation in the [sic]
Lithuanian history in a civil case,” occupying 80
Capital offices and 140 police officers prepared to close
off streets, erect barricades and prepare for riots and
massive unrest. R. 13-1 at 298-300. Ms. Venckiene
suffered retaliation: her car tires were tampered with,
she was forced off the bench and out of parliament by
a series of ex post facto actions, including two acts
specifically directed at her and therefore appearing to
be bills of attainder, removing her judicial immunity

5

A secretly plotted and suddenly executed attempt to overthrow
a government. Merriam-Webster On-Line Dictionary, merriamwebster.com/dictionary/putsch (visited Aug. 18, 2019).
6

Apparently referring to a wave of demonstrations and civil
unrest in Ukraine, the Ukrainian revolution. How it all Happened,
euromaidanpress.com/2016/02/20/the-story-of-ukraine-startingfrom-euromaidan/2/ (visited Aug. 18, 2019).

21
and then removing her parliamentary immunity so she
could be prosecuted and potentially be put in prison.
The Seventh Circuit rejected these kinds of events
as insufficient by comparing them to cases where
courts found a political offense exception to exist. After
plotting those cases, the Seventh Circuit held that the
circumstances in the instant case did not compare to
the violent uprisings it deemed necessary for the
political exception to apply. App. 20-21, citing, e.g.,
Ordinola, 478 F.3d at 591 (conflict over 50 percent of
Peruvian territory and affecting approximately 65
percent of country’s population); Barapind v. Enomoto,
400 F.3d 744, 750 (9th Cir. 2005) (tens of thousands of
deaths and casualties). But see In re Requested
Extradition of Joseph Patrick Doherty, 599 F.Supp.2d
270, 275 (S.D.N.Y. 1984) (rejecting the notion that the
political offense exception “is limited to actual armed
insurrections or more traditional and overt military
hostilities.”). The Seventh Circuit analysis therefore
arrived at the conclusion that would limit political
offenses to violent offenses committed as part of a warlike insurrection.
Construing this particular treaty to require nothing
less than a war-like insurrection makes a mash of the
treaty’s terms. Immediately after the treaty provision
that excludes extradition where the offense requested
“is a political offense,” the treaty goes to describe a
number of offenses that “shall not be considered
political offenses.” Extradition Treaty, Art. IV, § 2
(emphasis added). Listed are offenses such as “murder,
manslaughter, malicious wounding, or inflicting
grievous bodily harm”, any kind of hostage taking, and

22
causing substantial property damage, and other violent
acts. Id. Putting aside the “pure” political offenses,
which by their nature can be non-violent, it is hard to
imagine what kind of offenses other than the excluded
ones that would satisfy the “relative” political offense
description. In other words, criminal acts committed in
the midst of a violent revolution do not have to be, but
would very likely be, violent acts. If offenses can only
be considered “political” when committed in the context
of a violent insurrection like war, but violent offenses
committed during that insurrection like malicious
wounding and causing bodily harm shall not be
considered political offenses, then the so-called
“relative” political definition serves very little purpose.
Further defining the concept of “political offense” is
also necessary to guide lower courts on the concept of
“pure” political offenses as well. First, there is the
question whether the definition of a “pure” political
offense is as narrow as the lower courts have been
prone to accept. Even limiting “pure” political offenses
to “treason, sedition and espionage,” the offenses here
may fairly be considered “pure,” or at least some kind
of hybrid, depending upon how this Court construes the
term. The charges against Venckiene arose because
she allegedly incited hatred against the laws and the
legitimate government of Lithuania and urged public
disorder. See, e.g., Case No. 18-cr-56, R. 9, Ex. to
Affidavit at p. 55 (Declaration of Virginia Pugh in
Support of Arrest Warrant). Her followers publicly
stated that Lithuania “needs a Putsch or Maidan” and
that government and parliament needs to be blown up
and rebuilt. Venckiene was also accused of publicly
calling for people to violently breach the sovereignty of

23
the Republic of Lithuania. (Case No. 18-cv-3061, R. 131 at 73-74; R. 44-1 at 64). Lithuania referred to her
and her followers as a “resistance group” who camped
out and guarded the home where DK was staying and
allegedly took steps to prevent her from being seized.
The group allegedly gathered names of targets and
their families who were involved in the pedophilia ring
– which allegedly included high ranking officials -- and
conducted intimidating surveillance on them. R.1 at 3
(Case No. 19 CR 56). Supporters attacked the
President’s automobile. R. 13-1 at 301. When a
transfer failed the Lithuanian Chief Judge and Head of
the Judicial Council branded Venckiene an “abscess in
the legal system and an abscess in the political system”
and “the trouble of the whole state.” R. 44 at 731.
Those kinds of allegations are also consistent with
sedition and “pure” political offenses.
The point is that the Court needs to finally define
the parameters of the “political offense” exception.
Petitioner submits that it should not be limited to wars
and similar insurrections. Once the Court clarifies
what qualifies as a “political offense” then the case can
be remanded with instructions as to whether it applies
in the circumstances of the instant case.
B. Assuming the Existence of a Violent
Political Disturbance The Court Should
Grant Certiorari to Guide Lower Courts On
When an Offense is “Incidental” to an
Insurrection
Since Ornelas, lower courts adopted, applied, and
expanded a so-called “incidence test” to determine
whether an offense fell within the parameters of a

24
political offense. The Ninth Circuit in Quinn traced
this test back to an English case, In re Castioni, 1 Q.B.
149 (1890), where the subject of the extradition request
participated in the storming of the government palace
and killed a government official in the process. There
the court considered the offense incidental to the
political violence and denied extradition. Shortly
thereafter was a California District Court case, In re
Ezeta, 62 F. 972 (N.D.Cal. 1894), where Salvador
accused the subjects of murder and robbery committed
during a time of actual hostilities with Salvadorian
government forces and the District Court held most of
the offenses incidental to the political violence and
denied extradition. An offense committed four months
prior to the armed violence, however, was not
incidental and therefore was not a political offense,
despite the subjects’ contention the extradition request
was politically motivated.
These above cases led to Ornelas, where the subjects
of the extradition request were not acting incidental to
the on-going violence in Mexico when they crossed the
border to attack the Mexican army and Mexican
civilians during a period of revolutionary activity, took
private citizens as prisoners and stole their belongings.
The Court held the offenses were not connected to the
revolutionary activities then taking place.
Applying the above authorities to the instant case
the Seventh Circuit found that even if the violent
events were sufficient to trigger the first step in the
political offense inquiry, the charged offenses were not
“incidental to and in furtherance of the uprising” and
therefore the exception still did not apply. The court

25
agreed that political motivation played some role at
least in the second step, but found the offenses here
were personal and, under the totality of the
circumstances, “were efforts to stop law enforcement
from removing her niece from her custody pursuant to
a court order. … Venckiene’s actions that day were not
objectively those of someone furthering a political
agenda.” App. 20-21.
Venckiene submits that certiorari should be granted
so this Court can provide guidance on when an offense
is “incidental” to an uprising. If anything, the Seventh
Circuit opinion, left undone, will only contribute to
confusion about the political offense exception because
it does permit consideration of political motivation on
the second prong of the “relative” political offense
equation. That only begs the question as to what kinds
of political motivation bring an offense into the orbit of
a political offenses and what kinds of political
motivation do not.
In the circumstance here,
Venckiene certainly had a personal motive with respect
to her actions, but that would seem to prove too much.
The fact that a person has a personal motive cannot
exclude the presence of a political motive as well.
In the instant case all the events took place in
Lithuania and were directed at authorities, not
civilians. See Nezirovic v. Holt, 779 F.3d 233, 241 (4th
Cir. 2015) (political offense exception not applicable to
violent attacks on civilians). See also Eain, 641 F.2d at
521; Ahmad v. Wigen, 726 F.Supp. 389, 407-08
(E.D.N.Y. 1989); In re Extradition of Demjanjuk, 612
F.Supp. 544, 570 (S.D. Ohio), aff’d sub nom.,
Dumjanjuk v. Petrovsky, 776 F.2d 571 (6th Cir. 1985),

26
cert. denied, 475 U.S. 1016 (1986). Contra, Quinn, 783
F.2d at 806. The extent to which political motivation,
which in this case has been to punish Venckiene for her
outspoken allegations against the government and to
protect individuals in high office, needs to be
considered by the Court in the context of extradition.
II. CERTIORARI SHOULD BE GRANTED TO
DETERMINE WHETHER THE JUDICIAL
BRANCH CAN DECIDE HUMANITARIAN
ISSUES
THAT
RESULT
FROM
PARTICULARLY ATROCIOUS PROCEDURES
OR PUNISHMENTS IN THE REQUESTING
JURISDICTION
In In re Burt, 737 F.2d 1477, 1487 (7th Cir. 1984),
the Seventh Circuit held that courts may review the
Secretary of State’s extradition order to insure the
executive’s decision was made “without regard to such
constitutionally impermissible factors as race, color,
sex, national origin, religion, or political beliefs, and in
accordance with such other exceptional constitutional
limitations may exist because of particularly atrocious
procedures or punishments employed by the foreign
jurisdiction.” See also Martin v. Warden, 993 F.2d 824
(11th Cir. 1983); Plaster v. United States, 720 F.2d 340
(4th Cir. 1993). In Munaf v. Geren, 553 U.S. 674
(2008), however, a case that did not deal directly with
extradition, this Court held that humanitarian
concerns and the vagaries of the requesting country’s
legal processes fell into the domain of the executive
branch, not the judiciary. Id., at 702 (Judiciary is not
suited to second-guess political determinations that
require it to pass judgment on foreign justice systems

27
and enable the government to speak with one voice in
this area). The Seventh Circuit noted that Munaf
therefore cast doubt “on the continuing validity or at
least the scope of Burt’s constitutional and
humanitarian exceptions.” App. 29-30.
Following cases decided by the Fourth and Fifth
Circuits (Peroff v. Hylton, 563 F.2d 1099 (4th Cir.
1977), and Escobedo v. United States, 623 F.2d 1098
(5th Cir. 1980)), the Seventh Circuit was nevertheless
persuaded that a due process challenge like
Venckiene’s was reviewable, “at least in principle.”
App. 31. Rather than untangle the issue whether the
court could or could not consider the existence of
atrocious conditions, the Seventh Circuit found the
evidence “troubling” but not specific or detailed enough
for the court to overrule the executive branch anyway.
Petitioner submits that Burt should be adopted by this
Court as a statement of good law that survived the
Court’s opinion in Munaf.
This Court should therefor grant Venckiene’s
petition for certiorari and decide the scope of the
judiciary’s duty when it comes to evaluating atrocious
conditions and punishments as a prerequisite to an
order of extradition. In so doing, the Court needs to
provide guidance by defining exactly what kinds of
conduct constitute “atrocious conditions and
punishments” as well as the scope of the review.
For instance, besides the more obvious conditions
and punishments presented to the court in this case,
e.g., matters such as prison conditions and health,
there is the issue of modern due process safeguards
that would seem to transcend the ordinary due process

28
concerns that might differ from country to country.
Over a hundred years ago, in Neely v. Henkel, 180 U.S.
109, 122-23 (1901), the Court held that United States
constitutional guaranties relating “to the writ of habeas
corpus, bills of attainder, ex post facto laws, trial by
jury” etc., have no place in the extradition inquiry.
Here, Lithuania trampled Venckiene’s acceptable
modern day rights when it resurrected an expired
statute of limitations in order to bring stale charges.
Statutes of limitations may vary from country to
country, and a person acting in a foreign country may
rightfully be subject to the same limitations as a person
who lives there. But removing one’s protections ex post
facto is antithetical to modern law. Even more
egregious in this case was passing laws that ex post
facto stripped Venckiene of her judicial and
parliamentary immunities, which sound treacherously
like bills of attainder because the actions were directed
specifically at Venckiene and no one else. These too,
like prison conditions and lack of health care, are
atrocious punishments, and belie any assurances the
Republic of Lithuania might promise that Venckiene
will be safe and be treated fairly should she be
returned there.
The Court should grant the petition for certiorari to
consider and hopefully affirm the Seventh Circuit
decision in Burt and set parameters for lower courts to
follow when analyzing the question of whether
atrocious conditions and punishments exist.

29
II. THE COURT SHOULD GRANT CERTIORARI
TO DECIDE WHETHER SOMEONE OTHER
THAN THE SECRETARY OF STATE HAS
AUTHORITY TO SIGN OFF ON A BAREBONED EXTRADITION ORDER
Ultimately the Secretary of State makes the
decision whether to authorize extradition. In Trinidad
y Garcia v. Thomas, 683 F.3d 952 (9th Cir. 2012) (per
curiam) (en banc), a case involving the Convention
Against Torture (“CAT”), the State Department
submitted a generic declaration acknowledging the
Department’s obligations under the relevant treaty and
obligations but giving no indication it had actually
complied with those obligations in that case. The
Trinidad court remanded the case for the Secretary to
augment the record by providing a declaration that she
had complied with her obligations. The court held
further that if the district court received such a
declaration, “it shall determine whether it has been
signed by the Secretary or some official properly
designated by the Secretary.” If so, the court’s inquiry
will have reached its end and the petitioner’s liberty
interest will have been fully vindicated. Trinidad, 683
F.3d at 957. A concurring opinion in Trinidad
questioned remanding the case just so the Secretary
can declare she complied with her obligations.
In dissent, one of the judges took issue with the
majority’s holding “that once the Secretary (or her
delegate) meets the procedural due process
requirement by submitting a barebones declaration,
courts under no circumstances have authority to
conduct any substantive review of the Secretary’s

30
compliance with federal law.” Id., 683 F.3d at 985
(emphasis by the court). In other words, the dissent
was of the view that simply signing off on the
extradition without explanation was not enough to
justify extradition.
In the instant case the Secretary of State’s office
sent a letter to petitioner authorizing her surrender. R.
44-1 at 6. The letter was signed by Tom Heinemann,
who identified himself as Assistant Legal Advisor for
Law Enforcement and Intelligence with the U.S.
Department of State. Heinemann advised petitioner
that the Under Secretary of State for Political Affairs
decided to authorize petitioner’s extradition. The Court
should grant this petition for certiorari to decide
whether a letter signed by an assistant legal advisor,
purporting to communicate a decision by an Under
Secretary, is effective to satisfy the Secretary’s
responsibility to authorize extradition.
A petitioner raised this issue not long ago in Zenli
Ye Gon v. Dyer, 2015 U.S.Dist. LEXIS 138097
(W.D.Va.). He argued that only the Secretary had the
authority to make the extradition decision. In that
case the district court disagreed that the decision had
to be made by the Secretary personally. Id., 2015
U.S.Dist. LEXIS at *28 (“On the contrary, Congress
has expressly provided that unless otherwise specified
in law, the Secretary may delegate authority to
perform any of the functions of the Secretary or the
Department to officers and employees under the
direction and supervision of the Secretary.”) But this
is a jurisdictional question that should be considered by
the Court.

31
The matter is particularly acute in the
circumstances of the instant case, where the letter
writer offered no assurance that any of the arguments
made to the Secretary actually were considered. The
author stated simply that the Under Secretary
reviewed all the materials submitted and decided to
authorize extradition. That explanation would have
been sufficient to satisfy the majority of judges in
Trinidad, but not the dissent. The matter should be
considered by this Court. Certiorari should be granted.
CONCLUSION
The Seventh Circuit rejected Petitioner’s arguments
that she was likely to succeed on the merits based on
the political offense exception to extradition, based on
her fear of atrocious conditions and punishments, and
based on the other issues raised herein. That the court
rejected the other three Nken factors -- whether the
applicant will be irreparably injured absent a stay,
whether issuance of the stay will substantially injure
the other parties who have an interest in the litigation,
and where the public interest lies -- is therefore
irrelevant. To the extent they would be relevant the
analysis would need to be reconsidered in light of how
the Court answers responds to Venckiene’s arguments
above. Petitioner therefore requests that her Petition
for Certiorari be granted.

32
Respectfully submitted,
Michael D. Monico
Counsel of Record
MONICO & SPEVACK
20 South Clark Street
Suite 700
Chicago, IL 60603
312-782-8500
mm@monicolaw.com
Counsel for Petitioner
Neringa Venckiene

